Office of Inspector General
Audit Report




         WATER

Ohio==s Water Quality Program




     Report No. 99P00210




        June 30, 1999
Inspector General Division
 Conducting the Review:      Northern Audit Division

Region Covered:              Region 5

Program Office Involved:     Water Division
                   UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                            OFFICE OF THE INSPECTOR GENERAL
                                   NORTHERN DIVISION
                              77 WEST JACKSON BOULEVARD
                                  CHICAGO, IL 60604-3590

                                           June 30, 1999

MEMORANDUM

SUBJECT:       Report No. 99P00210
               Ohio=s Water Quality Program


FROM:          Anthony C. Carrollo
               Divisional Inspector General for Audits
               Northern Division

TO:            Francis X. Lyons
               Regional Administrator
               Region 5

Attached is the report on our review of Ohio=s Water Quality Program including Region 5
oversight. The audit was conducted as part of a nationwide review of States= water quality
programs. The overall purpose was to determine whether Ohio=s program met the principal goals
of the Clean Water Act.

This report contains issues that describe problems the Office of Inspector General (OIG) has
identified and corrective actions Region 5 has implemented. The audit report represents the
opinion of the OIG. Final determinations on matters in this audit report will be made by EPA
managers in accordance with established EPA audit resolution procedures.

ACTION REQUIRED

In responding to our April 30, 1999 position papers Region 5 provided corrective actions already
initiated for the issues identified in the report. Therefore, no further response is required, and we
are closing the report in our tracking system. Please track all planned corrective actions in the
Management Audit Tracking System. We have no objection to further release of this report to
the public.

We appreciate the cooperation and assistance Region 5 and the Ohio Environmental Protection
Agency provided during our audit. If you have any questions, please call Leah Nikaidoh, Audit
Manager, at (513) 487-2365.

Attachment
                                                          Review of Ohio Water Quality

                   EXECUTIVE SUMMARY

PURPOSE            This audit is one in a series of state water quality audits being
                   conducted by the Office of Inspector General (OIG) to develop a
                   national picture of the performance of state water quality programs.
                    Ohio was selected as one of the states for audit because the
                   Environmental Protection Agency (EPA) recognizes Ohio as a
                   national leader in the development and use of biological criteria in
                   its water quality program.


OBJECTIVES
                   Our overall objective was to determine whether the Ohio
                   Environmental Protection Agency=s (OEPA) water quality program
                   effectively protected its surface waters to sustain human health and
                   aquatic life, and provided for both recreational and economic
                   activities. Our specific objectives were to answer the following
                   questions:

                   C      Has OEPA implemented procedures to develop water
                          quality standards that will protect the Ohio=s water quality?
                   C      Has OEPA implemented procedures to test and assess the
                          quality of all appropriate waters Ohio?

                   C      Are OEPA=s reports on water quality complete, accurate,
                          and useful for program management?

                   C      Has Region 5 implemented effective procedures to approve
                          Ohio water quality standards and evaluate OEPA=s water
                          quality standards setting, testing, assessing, and reporting?


RESULTS IN BRIEF
                   OEPA developed water quality standards which will protect its
                   surface waters to sustain human health and aquatic life, and provide
                   for recreational and economic activities. Ohio is one of only two
                   States that include numeric biological criteria in its water quality
                   standards. The inclusion of biological criteria into Ohio=s water
                   quality program has resulted in OEPA gaining recognition as the
                   national leader in the development and use of biological criteria.

                                     i
                                                                    Report No. 99P00210
                                                                 Review of Ohio Water Quality

                         We found one significant water quality standard that OEPA needed
                         to update. OEPA was not using the most current EPA
                         recommended criteria to protect recreational uses of its water
                         bodies.

                         OEPA also implemented adequate procedures to test and assess the
                         quality of its waters. The use of biological surveys makes OEPA=s
                         assessments more accurate than other States=. Biological surveys
                         are valuable to a water quality program because they can often
                         detect effects of pollutants that otherwise would not be identified
                         with chemical tests alone. For example, OEPA found in 1995 that
                         50 percent of Ohio water bodies assessed with chemical tests alone
                         and identified as not impaired, were actually impaired after
                         biological surveys were conducted.

                         OEPA=s water quality reports were complete, accurate, and useful
                         for program management.

                         Region 5 generally implemented effective procedures to approve
                         Ohio water quality standards and evaluate the OEPA=s water
                         quality standards setting, testing, assessing, and reporting, with one
                         exception. Region 5 should have required OEPA to submit a
                         Quality Management Plan that the Region needed to evaluate
                         OEPA=s monitoring plan.


REGION 5 COMMENTS
AND OIG EVALUATION Region 5 agreed that OEPA needs to use the most current EPA
                   recommended criteria to measure pathogens in its recreational
                   surface waters. Region 5 initiated discussions with OEPA to
                   ensure that OEPA uses the more detective E. coli and Enterococci
                   criteria when assessing Ohio=s recreational surface waters.

                         Region 5 also agreed that OEPA needs to submit a Quality
                         Management Plan and stated that corrective actions have already
                         been implemented. In May 1999, OEPA submitted a draft Quality
                         Management Plan to the Region, and is expected to submit a final
                         Quality Management Plan this summer.




                                            ii
                                                                            Report No. 99P00210
                                       Review of Ohio Water Quality

The corrective actions initiated by Region 5 initiated, along with
OEPA=s follow-up actions, when completed, will adequately
address the issues identified in this report.




                  iii
                                                  Report No. 99P00210
                                                                                               Review of Ohio Water Quality

                                                  Table of Contents
EXECUTIVE SUMMARY........................................................................................................ i

ABBREVIATIONS .................................................................................................................. vi

1         OEPA DEVELOPED ADEQUATE WATER QUALITY STANDARDS........................ 1
               Has OEPA implemented procedures to develop water quality standards
                     that will protect Ohio=s water quality?....................................................... 1
               OEPA Leads The Way In Biological Criteria Program.......................................... 1
               OEPA Developed and Adopted Criteria Where EPA Has Not ............................. 2
               EPA Recommended Criteria Not Used                              ....................................................... 2
               Conclusion ........................................................................................................... 3
               Agency Comments and Actions............................................................................ 3
               OIG Evaluation.................................................................................................... 3

2         OEPA Implemented Effective Monitoring Procedures...................................................... 4
               Has OEPA implemented procedures to test and assess the quality
                     of all waters in Ohio?................................................................................ 4
               OEPA Uses Advanced Monitoring Techniques..................................................... 4
               OEPA Implemented an Adequate Monitoring Strategy......................................... 5

3         OEPA=s Reports Were Complete, Accurate, and Useful ................................................... 7
               Are OEPA=s water quality reports complete, accurate, and useful forprogram
                      management? ........................................................................................... 7
               OEPA=S Water Quality Reports are a Useful Management Tool ........................... 7

4         Region 5 Generally Provided Adequate Oversight of Ohio=s Water Quality Program ........ 9
                 Has Region 5 implemented effective procedures to approve Ohio water quality
                        standards and evaluate OEPA=s water quality standards setting, testing,
                        assessing, and reporting? .......................................................................... 9
                 Region 5 Actively Participates in OEPA=s Standards Program .............................. 9
                 Region 5 Did Not Require OEPA to Submit Quality Management Plans............... 9
                 Conclusion ......................................................................................................... 10
                 Agency Comments and Actions.......................................................................... 11
                 OIG Evaluation.................................................................................................. 11



EXHIBIT


                                                                  iv
                                                                                                             Report No. 99P00210
                                                                                            Review of Ohio Water Quality


    Background................................................................................................................... 12

APPENDICES

1   Region 5 Response to Draft Conclusions ....................................................................... 17

2   Distribution ................................................................................................................... 18




                                                               v
                                                                                                           Report No. 99P00210
     Review of Ohio Water Quality




vi
              Report No. 99P00210
                                                              Review of Ohio Water Quality

                                   Abbreviations
CFR         Code of Federal Regulations

NPDES       National Pollutant Discharge Elimination System

OEPA        Ohio Environmental Protection Agency

OIG         Office of Inspector General

TMDL Total Maximum Daily Loads




                                           vii
                                                                       Report No. 99P00210
                                                                    Review of Ohio Water Quality

                          CHAPTER 1
          OEPA Developed Adequate Water Quality Standards

Has OEPA implemented        Yes-OEPA developed adequate water quality standards. OEPA
procedures to develop       has one of the most extensive biological criteria programs in the
water quality standards     country and is one of only two states that has adopted numeric
that will protect Ohio==s   biological criteria into its water quality standards. Because OEPA
water quality?              was the first state to do so, EPA recognizes OEPA as the leader
                            among States in developing and using such criteria. OEPA also had
                            chemical criteria for all applicable Clean Water Act priority
                            pollutants.

                            There was one significant water quality standard that OEPA needs
                            to update. OEPA is not using the most current EPA recommended
                            criteria to protect recreational uses of its surface water bodies.

OEPA Leads The Way          Ohio has about 60,000 lakes, reservoirs, and rivers, and also has
In Biological Criteria      more than 3,300 named streams extending 44,000 miles in length.
Program                     Since 1980 OEPA has been proactive in developing biological
                            criteria in the absence of Federal biological standards. As a result,
                            EPA recognizes OEPA as the leader among states in developing
                            and using biological criteria. Using biological criteria expands and
                            improves water quality standards, helps identify impairment of uses,
                            and helps set program priorities. A primary strength of biological
                            criteria is the detection of water quality problems that other
                            methods may miss or underestimate. For example, in 1995, OEPA
                            found that 50 percent of Ohio water bodies assessed with chemical
                            tests alone and identified as not impaired were actually impaired
                            after biological surveys were conducted.

                            Although nearly all states have adopted narrative biological criteria
                            in their water quality standards, OEPA is one of only two that has
                            adopted numeric biological criteria. OEPA adopted numeric
                            biological criteria into its water quality standards in February 1990.
                             Numeric biological criteria include discrete quantitative values that
                            summarize the status of the biological community and describe the
                            expected condition of the system for different designated water
                            resource uses. Numeric criteria are better than narrative criteria
                            because of the specificity with which impairments can be identified.


                                               1
                                                                               Report No. 99P00210
                                                                       Review of Ohio Water Quality

OEPA Developed and      OEPA has a well-developed water quality standards program.
Adopted Criteria        OEPA had criteria for all the priority pollutants listed in Clean
Where EPA Has Not Water Act section 307(a) for which EPA had criteriaBthat is, 115 (91
                        percent) of 126 priority pollutants. Of the remaining 11 priority
                        pollutants for which OEPA did not have criteria, there was no
                        associated Federal criteria either. OEPA developed and adopted
                        water quality criteria for more than 170 total pollutants, including
                        55 non-priority pollutants.

EPA Recommended              OEPA did not use the most current EPA recommended criteria for
Criteria Not Used            identifying bacteria in Ohio=s recreational water bodies. In 1986,
                             EPA published its Ambient Water Quality Criteria for Bacteria,
                             which approved E. coli and Enterococci as bacteriological
                             indicators of harmful pathogens. EPA stated that these indicators
                             provide a better correlation between swimming and gastrointestinal
                             illness than the previous criteria recommended for fecal coliform
                             bacteria. EPA also recommended that states begin the transition
                             process to the new indicators.

                             Elevated bacteria levels can be hazardous to people using water for
                             recreational activities, such as swimming or water skiing. Bacteria
                             can cause illnesses including sore throats, ear infections, diarrhea,
                             gastroenteritis, meningitis, and encephalitis. The Clean Water Act
                             requires EPA to develop and publish criteria for assessing water
                             quality based on the latest scientific knowledge. States may adopt
                             either this criteria, or criteria that is at least as protective as EPA=s.
                              If a state does not adopt such criteria, the Clean Water Act
                             requires EPA to promulgate the Federal criteria for the state.

                             OEPA adopted the new criteria into its water quality standards in
                             May 1990, but as of 1998 had never used the criteria to identify
                             bacteria in Ohio=s recreational water bodies. Region 5 accepted
                             OEPA=s use of fecal coliformBa less detective criteriaBto assess the
                             quality of Ohio=s water bodies. As a result, water bodies with
                             harmful contamination may have gone undetected and unreported,




                                                 2
                                                                                   Report No. 99P00210
                                                                                      Review of Ohio Water Quality

                                      and the public may have been unknowingly exposed to harmful
                                      bacteria.1


CONCLUSION
                                      OEPA has a well-developed water quality standards program. In
                                      addition to having good chemical criteria in place, OEPA has one of
                                      the most extensive biological criteria programs in the country.
                                      Integrating biological criteria with traditional chemical criteria and
                                      whole effluent toxicity tests complements the relative strengths and
                                      weaknesses of each approach and provides for a more accurate
                                      measure of water quality.

                                      Although OEPA=s water quality standards are consistent with EPA
                                      requirements, OEPA is not using the most current EPA
                                      recommended criteria, which uses E. coli and Enterococci, to
                                      measure pathogens in its recreational surface waters. OEPA should
                                      use the most current criteria to ensure that it does not miss an
                                      opportunity to best protect people against elevated bacteria levels
                                      and associated illnesses.


AGENCY COMMENTS
AND ACTIONS                           Region 5 agreed that OEPA needs to use the most current EPA
                                      recommended criteria to measure pathogens in its recreational
                                      surface waters. Region 5 initiated discussions with OEPA to
                                      ensure that OEPA uses the more detective E. coli and Enterococci
                                      criteria when assessing Ohio=s recreational surface waters.

         1
           Based on an audit of EPA Region III=s water quality standards, dated March 31, 1999, the OIG recommended
Region III take actions to correct deficiencies if States do not amend their water quality standards to include the
Agency=s 1996 Ambient Water Quality Criteria for Bacteria. The Agency agreed with the OIG and stated that they will
be conducting a review and analysis to verify the scientific soundness of the 1986 criteria, and initiate a Federal
promulgation to impose the 1986 E.coli and /or enterococci criteria in addition to, or in place of, outdated fecal coliform
criteria. Region III also stated that EPA is committed to promulgating E. Coli and enterococci into 40 CFR Part 136
prior to any Federal promulgation for a State.




                                                             3
                                                                                                    Report No. 99P00210
                                                      Review of Ohio Water Quality




OIG EVALUATION
                 The corrective actions Region 5 initiated, along with OEPA=s
                 follow-up actions, when completed, will adequately address the
                 issue identified.




                                  4
                                                                 Report No. 99P00210
                                                                   Review of Ohio Water Quality

                          CHAPTER 2
          OEPA Implemented Effective Monitoring Procedures

Has OEPA implemented        YesBThe Ohio Environmental Protection Agency (OEPA)
procedures to test and      implemented procedures to test and assess the quality of all waters
assess the quality of all   in Ohio.
waters in Ohio?
                            The combined use of biological surveys and chemical testing made
                            OEPA=s assessments more accurate than other states=. Biological
                            surveys are valuable to a water quality program because the surveys
                            can often detect effects of pollutants that otherwise would not be
                            identified with chemical and toxicity tests alone. Strong state
                            monitoring programs enable states to better target water bodies for
                            cleanup, protect areas that already meet water quality standards,
                            and schedule assessment of waters of unknown quality. Such
                            programs also help EPA evaluate whether true environmental
                            results have been achieved.

                            We found that OEPA was not meeting the time frames established
                            in its monitoring strategy. However, OEPA management
                            acknowledged the problem and implemented procedures to lessen
                            the impact on its monitoring program.

OEPA Uses Advanced          According to OEPA, in 1995, 50 percent of Ohio=s rivers and
Monitoring Techniques       streams assessed with chemical tests alone and identified as not
                            impaired, were actually impaired after biological surveys were
                            conducted. Data collected in biological surveys are important
                            because of their use in directly assessing and identifying water
                            bodies that are in need of special protection based on their
                            biological integrity.

                            In addition to being a valuable tool to measure the biological
                            integrity of a water body, biological surveys are also a key
                            component in the objectives of the Clean Water Act. The Clean
                            Water Act, Section 101, states that the Act=s primary objective is to
                            Arestore and maintain the chemical, physical, and biological integrity
                            of the nation=s waters.@ Biological surveys provide the essential
                            third element for water quality management. Incorporating
                            biological surveys into a fully integrated program directly protects


                                              5
                                                                              Report No. 99P00210
                                                             Review of Ohio Water Quality

                      the biological integrity of surface waters and provides indirect
                      protection for chemical and physical integrity.

                      Biological surveys involve the collecting of fish and
                      macroinvertebrates (insects, crustaceans, snails and worms),
                      computing various indices, and comparing the results to least
                      impacted reference sites. The fish and macroinvertebrates collected
                      for biological surveys inhabit the water body year-round and cannot
                      escape the effects of water pollution. Therefore, these organisms
                      serve as environmental monitors and can be studied to determine
                      the long-term effects of municipal and industrial discharge, spills,
                      habitat degradation, sedimentation and runoff from farm fields,
                      streets, highways and yards. In contrast, chemical testing only
                      shows the short-term conditions that exist at the time the sample is
                      taken. Chemical testing assesses the suitability of the water body to
                      support a healthy community, but it does not directly assess the
                      community itself.

                      Although the use of biological surveys in OEPA=s water quality
                      program has increased the accuracy of OEPA=s water monitoring
                      process, the biological surveys do have limitations. Biological
                      surveys can help determine what has happened in a water body, but
                      cannot predict what will happen. Therefore, biological monitoring,
                      when used in coordination with traditional chemical and toxicity
                      testing, complements the relative strengths and weaknesses of each
                      approach and provides for a more accurate measure of water
                      quality. Biological data are a good measure of what has happened
                      in a water body, whereas chemical and toxicity data are a better
                      measure of what could happen in a water body.

OEPA Implemented an   OEPA=s monitoring strategy is based on a five-year cycle;
Adequate Monitoring   however, according to OEPA officials, they complete the cycle
Strategy              about every 10 years. OEPA acknowledged that it is not meeting
                      the time frames of its monitoring strategy and are working on ways
                      to reduce monitoring cycles to meet the five-year goal. OEPA
                      officials stated that the main reason for the delay is resource
                      limitations.

                      To lessen the impact of not meeting the five year cycle, OEPA
                      encourages and pursues feedback from internal and external parties
                      when creating its yearly Test Plan. OEPA creates its yearly Test

                                        6
                                                                        Report No. 99P00210
                                       Review of Ohio Water Quality

Plan to include the needs of all interested parties. OEPA considers
not only waterbodies within the designated basin scheduled for
review, but also specific requests from OEPA field offices, other
state agencies, and the general public. Including these groups in the
Test Plan process provides OEPA with assurance that, although it
is not testing and assessing all water bodies in a particular basin
once every five years, interested parties needs and concerns
regarding Ohio=s water quality monitoring are addressed.




                  7
                                                 Report No. 99P00210
                                                                  Review of Ohio Water Quality

                          CHAPTER 3
        OEPA==s Reports Were Complete, Accurate, and Useful

Are OEPA==s water quality   YesBThe Ohio Environmental Protection Agency=s (OEPA) water
reports complete,           quality reports were complete, accurate, and useful for program
accurate, and useful for    management. OEPA=s 1996 Water Resource Inventory Report
program management?         [305(b) report] and 303 (d) List of Impaired Water Bodies were
                            prepared in compliance with EPA guidelines, and were complete,
                            accurate, and useful to OEPA and Region 5 program managers.
                            OEPA=s reports were based on scientific data reviewed for quality
                            control and maintained in OEPA databases.

OEPA==S Water Quality       Region 5 personnel verified that OEPA=s 1996 305(b) and 303(d)
Reports are a Useful        reports contained all required information and that the reports
Management Tool             were useful for program management (see exhibit 1, page 12, for
                            more detail about these reports). The Clean Water Act requires
                            OEPA to submit a 305(b) and 303(d) report every two years. The
                            305(b) reporting process is the principal means by which EPA,
                            Congress, and the public evaluate whether U.S. waters meet water
                            quality standards, the progress made in maintaining and restoring
                            water quality, and the extent of remaining problems.

                            OEPA and Region 5 use the information presented in the 305(b)
                            and 303(d) reports for programmatic direction. Programmatic uses
                            for the 305(b) and 303(d) reports include: (1) reviewing and
                            revising permits; (2) targeting geographical areas of concern for
                            enforcement actions; (3) evaluating specific impacts from various
                            pollution categories; (4) being an information tool for the Congress
                            and the public; (5) scheduling water bodies for the development of
                            Total Maximum Daily Loads (TMDL); and, (6) being a general
                            research tool.

                            OEPA gathers data and documents test results according to
                            detailed quality assurance/quality control manuals. OEPA
                            personnel review all data for accuracy and completeness, and enter
                            the data into OEPA databases. OEPA also enters some of its data




                                              8
                                                                             Report No. 99P00210
                                                                                Review of Ohio Water Quality

                                   into EPA databases--such as ACQUIRE, STORET, and IRIS.2
                                   OEPA=s water quality reports are generated from its own databases
                                   which OEPA believes are more reliable than EPA=s.




        2
          ACQUIRE stands for the Aquatic Information Retrieval system and is maintained by EPA=s Office of Water.
STORET stands for Storage and Retrieval of Water-Related Data and is also an Office of Water database. IRISBthe
Integrated Risk Information SystemBis maintained by EPA=s Office of Research and Development.




                                                        9
                                                                                            Report No. 99P00210
                                                                  Review of Ohio Water Quality

                              CHAPTER 4
            Region 5 Generally Provided Adequate Oversight
                   of Ohio==s Water Quality Program

Has Region 5              YesBRegion 5 generally implemented effective procedures to
implemented effective     approve Ohio water quality standards and evaluate the State=s
procedures to approve     water quality standards setting, testing, assessing, and reporting.
Ohio water quality        Region 5 did not, however, require OEPA to submit Quality
standards and evaluate    Management Plans that the Region needed to evaluate OEPA=s
OEPA==s water quality     monitoring strategy.
standards setting,
testing, assessing, and
reporting?

Region 5 Actively         Region 5 has effective procedures to approve and evaluate Ohio=s
Participates in OEPA==s   water quality standards, and placed a high priority on the oversight
Standards Program         of state water quality standards development. Region 5 routinely
                          communicates with OEPA personnel to discuss problems and
                          answer questions State officials have while developing water
                          quality criteria. These communications identify problems at an
                          early stage and make the EPA approval process much quicker with
                          fewer complications. Region 5 also holds monthly conference calls
                          with the Region 5 states and, at times, Headquarters personnel to
                          discuss pertinent issues. The conference calls typically include
                          discussions relating to new criteria development, problems
                          encountered, successful programs, EPA Headquarters news, etc.
                          Cooperation between Region 5 and OEPA throughout the water
                          quality standards setting process has resulted in a good working
                          relationship and a good overall water quality standards program.

Region 5 Did Not          Region 5 did not require OEPA to submit Quality Management
Require OEPA to           Plans that the Region needed to evaluate OEPA=s monitoring
Submit Quality            strategy. Quality Management Plans represent the states=
Management Plans          intentions for conducting yearly monitoring programs and other
                          specific testing that will be conducted throughout the year.
                          According to 40 CFR 130.4, states are required to establish
                          appropriate testing techniques to monitor water quality. Without
                          the Quality Management Plans, the Region could not evaluate



                                            10
                                                                             Report No. 99P00210
                                                                                  Review of Ohio Water Quality

                                      OEPA=s monitoring strategy and determine if OEPA was meeting
                                      the requirements of the Clean Water Act.

                                      In a memorandum to OEPA, dated May 29, 1996, Region 5 noted
                                      that OEPA=s Quality Assurance Program Plan3 did not contain all
                                      the detailed information Region 5 needed for a comprehensive
                                      review of OEPA=s quality assurance program. The memorandum
                                      stated that OEPA=s plans did not include descriptions of specific
                                      tasks, sites, and special needs for planning purposes. Region 5
                                      informed OEPA that the 1996 Quality Assurance Program Plan
                                      would be approved on the condition that the future plans include
                                      the detailed information.

                                      Region 5's goal is to have OEPA comply with the national
                                      consensus standard, ANSI/ASQC E4-19944, ASpecifications and
                                      Guidelines for Environmental Data Collection and Environmental
                                      Technology programs@. The guidelines define the management and
                                      technical elements necessary to develop and implement a quality
                                      assurance system for an organization=s environmental programs.
                                      EPA refers to quality assurance plans prepared using these
                                      guidelines as Quality Management Plans. In October 1998, EPA
                                      distributed the final draft of the AEPA Requirements for Quality
                                      Management Plans@ (QA/R-2). This document formally defined
                                      EPA=s requirements for Quality Management Plans and stated that
                                      it is based on the national consensus standard, ANSI/ASQC E4-
                                      1994.


CONCLUSION

         3
             In 1996, Quality Management Plans were called Quality Assurance Program Plans.

         4
          ANSI/ASQC stands for the American National Standards Institute / American Society of Quality Control.
The ANSI=s primary function is to facilitate the development of national standards. The group was founded in 1918 by
five engineering societies and three government agencies. The institute remains a private, nonprofit organization
supported by private and public sector organizations.




                                                          11
                                                                                               Report No. 99P00210
                                                       Review of Ohio Water Quality

                  Region 5 generally provided adequate oversight of OEPA=s water
                  quality program. Region 5 maintained open lines of communication
                  with OEPA which helped identify and resolve issues timely.

                  Although Region 5 implemented effective procedures to approve
                  Ohio water quality standards, Region 5 should have required OEPA
                  to submit Quality Management Plans needed to evaluate OEPA=s
                  monitoring strategy. Quality Management Plans are a principal
                  means by which the Region evaluates OEPA=s monitoring strategy.
                   Without these plans, Region 5 cannot determine if OEPA=s
                  monitoring strategy is sufficient to meet the requirements of the
                  Clean Water Act.


AGENCY COMMENTS
AND ACTIONS       Region 5 agreed that OEPA needs to submit a Quality Management
                  Plan and stated that corrective actions have already been
                  implemented. In May 1999, OEPA submitted a draft Quality
                  Management Plan to the Region, and is expected to submit a final
                  Quality Management Plan this summer.


OIG EVALUATION
                  The corrective actions Region 5 initiated, along with OEPA=s
                  follow-up actions, when completed, will adequately address the
                  issue identified.




                                   12
                                                                  Report No. 99P00210
                                                    Review of Ohio Water Quality

                                                                          Exhibit 1
                                                                         Page 1 of 5
                       Background

PURPOSE      This audit was conducted as a portion of the Office of Inspector
             General=s (OIG) Water Quality Issue Area Plan, dated September
             1997. We reviewed the State of Ohio=s water quality program
             primarily because EPA recognizes Ohio as the national leader in the
             development and use of biological criteria to assess water bodies.
             Strong state monitoring programs enable states to better target
             water bodies for cleanup, protect areas that already meet water
             quality standards, and schedule assessment of waters of unknown
             quality. Such programs also help EPA evaluate whether true
             environmental results have been achieved.

             The objectives of this audit were to determine if:

             $      Ohio Environmental Protection Agency (OEPA) had
                    implemented procedures to develop water quality standards
                    that will protect Ohio=s water quality.
             $      OEPA had implemented procedures to test and assess the
                    quality of all waters in Ohio.
             $      OEPA=s water quality reports were complete, accurate, and
                    useful for program management.
             $      EPA Region 5 had implemented effective procedures to
                    approve Ohio water quality standards and evaluate OEPA's
                    water quality standards setting, testing, assessing, and
                    reporting.


BACKGROUND
             Ohio has about 60,000 lakes, reservoirs, and rivers, and also has
             more than 3,300 named streams extending 44,000 miles in length.
             To protect these water bodies for the future, the Ohio
             Environmental Protection Agency (OEPA) has developed water
             quality standards. These standards are monitored, enforced, and
             updated according to new technologies and developments. Ohio=s
             water quality standards are contained in the Ohio Administrative
             Code Chapter 3745-1. In accordance with the Clean Water Act,



                               13
                                                                  Report No. 99P00210
                                        Review of Ohio Water Quality

                                                            Exhibit 1
                                                           Page 2 of 5

the standards must be reviewed and revised, as necessary, at least
once every three years.

The water quality standards have three main parts: (1) designated
uses; (2) narrative and numeric criteria designed to attain and
maintain the quality of water needed to support the designated uses;
and, (3) an antidegradation policy, designed to protect the existing
water quality.

There are four types of use designations in Ohio: aquatic life
habitat, water supply, recreation, and state resource waters.
Generally, all water bodies of any significant size have been
assigned at least one designated use.

Narrative criteria require that all of Ohio=s surface waters be free
from suspended solids, floating debris, oil, scum, and other
materials. Numeric criteria consist of chemical criteria, whole
effluent toxicity, and biological criteria.

Water quality standards ensure that our water resources will be
maintained for future generations by restricting the degradation of
the current water quality in the state. Antidegradation policies, as
part of the standards, are designed to ensure that assigned uses for
water bodies are protected and maintained.

Title 40 Code Federal Regulation (CFR) 130.4, Water Quality
Monitoring, requires states to establish appropriate testing
techniques to monitor water quality. The monitoring information is
used to support activities to abate and control pollution, develop
water quality standards, and report water quality information to the
public. The regulations further require states to collect and analyze
data to ensure the physical, chemical, and biological data, and
quality assurance and control programs are scientifically valid.

OEPA=s Surface Water Division conducts field studies and water
quality tests to determine current water quality conditions
throughout the state. OEPA=s biological water quality survey
                                                            Exhibit 1

                  14
                                                   Report No. 99P00210
                                                     Review of Ohio Water Quality

                                                                       Page 3 of 5

              program includes the sampling of fish and invertebrate species in
              Ohio=s streams. Biological monitoring, when used in combination
              with chemical tests, is a better measure of water quality. Fish,
              insects, snails, worms, etc., serve as environmental monitors and
              are studied to determine the long-term effects of municipal and
              industrial effluents, spills, habitat degradation, and runoff. OEPA
              also monitors physical impairments to habitat, and conducts
              chemical monitoring.

              OEPA submits a Water Resource Inventory Report [305(b)
              Report], and a 303(d) List of Impaired Water BodiesBwhich are
              required by the Clean Water ActBto EPA every two years. EPA is
              responsible for compiling data from all states= 305(b) Reports,
              summarizing them, and transmitting the summaries to Congress
              along with an analysis of the status of water quality nationwide.
              The 303(d) List of Impaired Water Bodies, a report derived from
              the 305(b) Report, is used to schedule water bodies for the
              development of total maximum daily loads (TMDL). A TMDL is
              the total maximum daily amount of a pollutant that can be
              discharged and properly absorbed without an environmental effect
              to a receiving body of water. The 303(d) list is also required under
              40 CFR 130.7, TMDLs, which requires states to identify all
              impaired water bodies where existing pollution control
              requirements are not stringent enough to achieve the water quality
              standard.

              The 305(b) reporting process is the principal means by which EPA,
              Congress, and the public evaluate whether U.S. waters meet water
              quality standards, the progress made in maintaining and restoring
              water quality, and the extent of remaining problems.


SCOPE AND
METHODOLOGY   We reviewed OEPA's water quality monitoring program activities
              from 1994 through 1997, concentrating on the 1996 Water Quality
              Assessment Reports. These were the most recent reports available.
               Water quality reporting is on a 2-year cycle, and water quality

                                                                         Exhibit 1

                               15
                                                               Report No. 99P00210
                                       Review of Ohio Water Quality

                                                         Page 4 of 5

standards setting is on a 3-year cycle. By reviewing activities from
1994-1997, we were able to review both the most recent Water
Quality Assessment Report and the latest update of Ohio=s water
quality standards. For more scientifically technical water quality
issues, we obtained assistance from the OIG=s Engineering and
Science Staff. This assistance included: (1) a comparison of Ohio=s
water quality criteria to EPA=s criteria, (2) an analysis of some
monitoring data, and (3) a review of Ohio=s antidegradation policy
and implementation plan.

We reviewed OEPA=s implementation of Clean Water Act
requirements to establish surface water quality standards, and
monitor and report on surface water quality. We did not review
activities related to groundwater, state revolving funds, drinking
water, or National Pollutant Discharge Elimination System
(NPDES) permitting, except as related to water quality standards
and monitoring.

We conducted audit work at OEPA=s Surface Water Division in
Columbus, OH. We also joined OEPA staff during a site visit, in
July 1998, to the Little Darby Creek, near Columbus, OH. During
this site visit, we watched as OEPA staff collected a sample of fish,
via electrofishing, to assess the aquatic health of that stream
segment. We also conducted work in Chicago with Region 5
officials.

We reviewed OEPA and Region 5 records, policies, and
procedures concerning water quality standards setting, water
quality testing, assessing, and reporting. We also reviewed the
following documents: OEPA=s data quality assurance plan;
State/EPA agreements, workplans; Ohio=s 1996 305(b) and 303(d)
reports; and, Region 5's management agreement for fiscal 1998-
1999 with the Office of Water.

We performed our audit in accordance with the 1994 Government
Auditing Standards issued by the Comptroller General. We
conducted fieldwork from July 1998 to March 1999.
                                                       Exhibit 1
                                                      Page 5 of 5

                  16
                                                  Report No. 99P00210
                                                      Review of Ohio Water Quality




PRIOR AUDITS
               The OIG completed similar audits in Region III, Oregon, Colorado,
               and Missouri. The OIG issued a report entitled, ARegion III Water
               Quality Standards, Monitoring, and Reporting,@ on March 31,
               1999. The OIG found that states in the Region generally did not
               use the proper criteria to protect against bacteria in water. Several
               states also did not have adequate water quality standards for
               chemicals to protect water bodies.

               The OIG issued the Oregon report, entitled, AOregon=s Water
               Quality Program,@ on March 31, 1999. The OIG reported that
               generally Oregon=s water quality program, including its water
               quality standards and monitoring, met the goals of the Clean Water
               Act.

               The OIG issued the Colorado report, entitled, AColorado Water
               Quality Standards, Monitoring, and Reporting Program,@ on March
               10, 1999 (Report No. 9100093). In this report, the OIG found that
               Colorado needs to improve its procedures to adopt and support its
               water quality standards. The OIG also found that Colorado=s water
               quality reports varied in completeness and accuracy.

               The Missouri report, entitled, AMissouri=s Water Quality Standards
               and Monitoring,@ was issued on March 31, 1998 (Report No.
               8100080). In this report, the OIG found that Missouri did not
               adopt the swimmable use classification for all waters or conduct the
               required studies showing the use could not be achieved. The OIG
               also found that many of Missouri=s water quality standards were
               less restrictive than those required by the Clean Water Act and that
               controls were not in place to ensure the State=s water quality
               reports were complete and accurate.




                                17
                                                                 Report No. 99P00210
                                                                                               Review of Ohio Water Quality

                                                                                                                      Appendix 1
                                                                                                                      Page 1 of 1

                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                            REGION 5
                                  77 WEST JACKSON BOULEVARD
                                      CHICAGO, IL 60604-3590



                                                                     REPLY TO THE ATTENTION OF
                                                                                                            WT-15J

MEMORANDUM

DATE:       MAY 27 1999

SUBJECT: Comments on Ohio Audit

FROM:        JoLynn Traub
             Directory, Water Division

TO:          Tony Carrollo, OIG

Thank you for the opportunity to review the draft conclusions of the audit of Ohio=s water quality
standards program. Region 5 agrees with the conclusions, specifically, Ohio=s criteria for
bacteriological contamination to protect recreational uses should be updated to reflect the current
recommendations of the United States Environmental Protection Agency (USEPA), and the Ohio
Environmental Protection Agency (Ohio EPA) should submit a Quality Management Plan (QMP). In
response to the findings of the audit, Region 5 took the following steps to correct the problems
identified. Region 5 initiated discussions with., Ohio EPA to update Ohio=s bacteriological criteria in
its next water quality standards review. Ohio EPA is in the process of scheduling priority activities
and should be able to provide a date by when work will be begun by the end of July. With respect to
the QMP, Ohio has recently submitted a draft QMP to the Region, and is expected to submit a final
QMP this summer.

If you have any questions, please contact me, or have your staff contact David Pfeifer of my staff. Mr
Pfeifer may be reached at (312) 353-9024.

cc: Ms. Leah Nikaidoh, Audit Manager
   Mr. Greg Luebbering, OIG




             Recycled/Recyclable $ Printed with Vegetable Oil Based Inks on 50% Recycled Paper (20% Postconsumer)



           Note: The original response was signed by Mary P. Tyson for JoLynn Traub.




                                                            18
                                                                                                                Report No. 99P00210
                                                                  Review of Ohio Water Quality

                                                                                   Appendix 2
                                                                                   Page 1 of 1
                                        Distribution

Region 5

Regional Administrator (R-19J)
Audit Followup Coordinator (MFA-10J)
Senior Leadership Team
Public Affairs (P-19J)
Intergovernmental Relations Officer (R-19J)
Library (PL-12J)

Headquarters

Assistant Administrator for Water (4101)
Associate Administrator for Congressional and Legislative Affairs (1301)
Associate Administrator for Regional Operations and State/Local Relations (1501)
Associate Administrator for Communications, Education, and Public Affairs (1701)
Agency Followup Official (2710)
 Attn: Assistant Administrator
Agency Followup Coordinator (3304)
 Attn: Director, RMD
Headquarters Library (3404)

Office of Inspector General

Inspector General (2410)
Deputy Assistant Inspector General for Internal Audits (2421)
HQ Audit Liaison (2421)
GAO - Issue Area Planner

Ohio Environmental Protection Agency

Director, Ohio Environmental Protection Agency
Director, Surface Water Division




                                              19
                                                                            Report No. 99P00210
